No. 19-1000
IN THE SUPREME COURT OF THE UNITED STATES
_________________
HEON CHEOL-CHI, PETITIONER
v.
UNITED STATES OF AMERICA.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with
copies of the BRIEF FOR THE UNITED STATES IN OPPOSITION, via email and
first-class mail, postage prepaid, this 8th day of May, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,752 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d). I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 8, 2020.

May 8, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

Due to the continuing delay in receiving incoming mail at the Department of
Justice, in addition to mailing your brief via first-class mail, we would appreciate a fax or
email copy of your brief. If that is acceptable to you, please fax your brief to Charlene
Goodwin, Supervisory Case Management Specialist, Office of the Solicitor General, at
(202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone
number is (202) 514-2217 or 2218. Thank you for your consideration of this request.

19-1000
CHI, HEON-CHEOL
USA
BENJAMIN L. COLEMAN
COLEMAN & BALOGH LLP
1350 COLUMBIA STREET
SUITE 600
SAN DIEGO, CA 92101
619-794-0420
BLC@COLEMANBALOGH.COM

